<html>
<title> - LEGISLATIVE HEARING ON H.R. 571, H.R. 593, H.R. 1015, H.R. 1016, H.R. 1017, H.R. 1128, AND H.R. 1129</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 LEGISLATIVE HEARING ON H.R. 571, H.R. 593, H.R. 1015, H.R. 1016, H.R. 
                     1017, H.R. 1128, AND H.R. 1129

=======================================================================

                                HEARING

                               before the
              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        THURSDAY, MARCH 19, 2015

                               __________

                           Serial No. 114-11

                               __________

       Printed for the use of the Committee on Veterans' Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-628                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          








                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA COLEMAN RADEWAGEN, American 
    Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATION

                    MIKE COFFMAN, Colorado, Chairman

DOUG LAMBORN, Colorado               ANN M. KUSTER, New Hampshire, 
DAVID P. ROE, Tennessee                  Ranking Member
DAN BENISHEK, Michigan               BETO O'ROURKE, Texas
TIM HUELSKAMP, Kansas                KATHLEEN RICE, New York
JACKIE WALORSKI, Indiana             TIMOTHY J. WALZ, Minnesota

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.






















                            C O N T E N T S

                              ----------                              

                        Thursday, March 19, 2015

                                                                   Page

Legislative Hearing on H.R. 571, H.R. 593, H.R. 1015, H.R. 1016, 
  H.R. 1017, H.R. 1128, and H.R. 1129............................     1

                           OPENING STATEMENTS

Mike Coffman, Chairman...........................................     1
    Prepared Statement...........................................    36
Ann Kuster, Ranking Member.......................................     3
Jeff Miller, Chairman of the Full Committee......................     4
    Prepared Statement...........................................    37

                               WITNESSES

Ms. Meghan Flanz, Director, Office of Accountability Review 
  Department of Veterans Affairs.................................    11
    Prepared Statement...........................................    38

    Accompanied by:

        Dr. Michael Icardi, National Director of Pathology and 
            Laboratory Medicine Services, VHA

        Mr. Stanley Lowe, Deputy Assistant Secretary for 
            Information Security and Chief Information Security 
            Officer, Department of Veteran Affairs

        Mr. Dennis Moisten, CC, Associate Executive Director, 
            Office of Operations, Office of Construction and 
            Facilities Management, Department of Veterans Affairs
Ms. Diane Zumatto, National Legislative Director, AMVETS.........    26
    Prepared Statement...........................................    52

Mr. Frank Wilton, Chief Executive Officer, American Association 
  of Tissue Banks................................................    28
    Prepared Statement...........................................    58

Mr. Daimon E. Geopfert, National Leader, Security and Privacy 
  Consulting, McGladrey, LLP.....................................    29
    Prepared Statement...........................................    62

                        STATEMENT FOR THE RECORD

American Legion..................................................    71


 
 LEGISLATIVE HEARING ON H.R. 571, H.R. 593, H.R. 1015, H.R. 1016, H.R. 
                     1017, H.R. 1128, AND H.R. 1129

                              ----------                              


                        Thursday, March 19, 2015

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
               Subcommittee on Oversight and Investigation,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 8:10 a.m., in 
Room 334, Cannon House Office Building, Hon. Mike Coffman 
[chairman of the committee] presiding.
    Present:  Representatives Kuster, Lamborn, Roe, Benishek, 
Huelskamp, Walorski, O'Rourke, Rice, Walz, Miller, and 
Kirkpatrick.

           OPENING STATEMENT OF CHAIRMAN MIKE COFFMAN

    Mr. Coffman. Good morning. This hearing will come to order.
    I want to welcome everyone to today's legislative hearing 
on H.R. 571, H.R. 593, H.R. 1015, H.R. 1016, H.R. 1017, H.R. 
1128, and H.R. 1129. The latter two, H.R. 1128 and 1129, are 
bills suggested for this hearing by the minority. So I will ask 
Ranking Member Kuster to address them in her opening remarks.
    I also welcome full committee Chairman Jeff Miller and ask 
unanimous consent that Ann Kirkpatrick, the previous Ranking 
Member of this subcommittee, be allowed to join us at the dais.
    Ms. Kuster. No objection.
    Mr. Coffman. Okay. While we are at it, I would also like to 
ask unanimous consent that a statement from the American Legion 
be entered into the hearing record.
    Hearing no objection, so ordered.
    [The information follows:]
    Mr. Coffman. Today we will address H.R. 571, the Veterans 
Affairs Retaliation Prevention Act of 2015, which was 
introduced by full committee Chairman Jeff Miller.
    This bill will improve the treatment of whistleblower 
complaints by the VA by defining a set process for 
whistleblowers, to help correct problems at the lowest level 
possible, while creating necessary penalties for supervisors 
who retaliate against whistleblowers.
    Second, H.R. 593, the Aurora VA Hospital Refinancing 
Construction Reform Act of 2015. It is a bipartisan bill I 
introduced along with the rest of the Colorado delegation. H.R. 
593 would increase the authorization cap to help the VA to 
finally finish the Aurora Medical Center with the much-needed 
help of the Army Corps of Engineers, in order to give Colorado 
veterans the state-of-the-art medical facility they deserve. 
Since this bill's introduction, the VA has announced that the 
Aurora project will cost at least $1.73 billion, a full $1.4 
billion over the original costs found in GAO's report. This is 
simply outrageous and could very well make the hospital the 
most expensive in our nation's history.
    Notably, according to GAO, the New Orleans VA Hospital 
construction project will top $1 billion as well. So 
mismanagement, cost overruns and delays are the norm of VA's 
construction program. For that reason, I question whether the 
VA should conduct its own major construction at all. While it 
is my top priority to get this hospital built so that Colorado 
veterans get the service they deserve, we simply cannot 
authorize the nearly $1 billion authorization cap increase 
without VA presenting the options it has to correct its own 
poor decisions with only half of a hospital to show for it.
    The VA has reprogrammed a portion of the funds needed to 
finish the Aurora construction project, but it cannot continue 
to pull money from other projects, thereby robbing other 
veterans around the country of a timely completion of their 
hospital. Perhaps we could use VA bonuses to provide funding 
for this grossly mismanaged project.
    But what is absolutely clear is that before any money is 
given to the VA to bail them out of this mess they created in 
Aurora, VA construction officials responsible for this travesty 
must be held accountable. These individuals should not be 
simply taken out of the chain of command for VA construction, 
they should be fired. If anyone in the private sector allowed a 
project under its supervision to get $1 billion over budget, 
the decision to fire them would be simple. That should happen 
here and I look forward to our discussion today with VA on ways 
forward.
    Third, we will address H.R. 1015, the Protection of 
Business Opportunities for Veterans Act of 2015, sponsored by 
the Honorable Tim Huelskamp of Kansas.
    H.R. 1015 will make tremendous strides at holding 
accountable the bad actors that attempt to defraud veteran-
owned small businesses of crucial set-asides they receive in 
business.
    Fourth, we will discuss H.R. 1016, the Biological Impact 
Tracking and Veterans' Safety Act of 2015, introduced by the 
Honorable Phil Roe of Tennessee.
    This legislation requires the VA to implement a standard 
identification protocol for biological implants consistent with 
the FDA's system, which would improve VA's ability to prevent 
implantation of contaminated tissue, and also to notify 
veterans in cases of recalls.
    Fifth, we will hear about H.R. 1017, the Veterans 
Information and Security Improvement Act, which was sponsored 
by the Honorable Jackie Walorski from Indiana.
    This IT security directive is designed to assist VA in 
mitigating known weaknesses by identifying detailed actions 
that should be taken to address its longstanding information 
security challenges.
    Once again, I would like to thank all those in attendance 
for joining us in our discussion today. And I now recognize 
Ranking Member Kuster for five minutes to issue her opening 
statement.

    [The prepared statement of Chairman Mike Coffman appears in 
the Appendix]

         OPENING STATEMENT OF RANKING MEMBER ANN KUSTER

    Ms. Kuster. Thank you very much, Mr. Chair. And I want to 
say at the outset, I am delighted to be here with you and I 
look forward to our work together on the Oversight and 
Investigations Subcommittee.
    Welcome our panel this morning. The subcommittee will hear 
the views of the VA and our witnesses regarding seven bills 
before us, as outlined by our chair. These bills address 
concerns over the VA's whistleblower protections, cyber 
security measures, tracking biological implants, and other 
important matters.
    These legislative hearings are vital as the subcommittee 
begins our work to ensure that the important legislation moves 
forward, that requirements are measured, and ultimately that we 
are working to fix and improve the problems discussed today. 
None of us have all the answers. By hearing the opinions of 
many, we can better ensure that we are effectively addressing 
these problems at the VA that lend themselves to oversight and 
legislative fixes.
    I thank the Chairman for including two measures introduced 
by my predecessor as ranking member on this subcommittee, 
Representative Ann Kirkpatrick, who will be with us this 
morning.
    H.R. 1129 addresses the manner in which the VA investigates 
the complaints of whistleblowers, while ensuring cooperation 
and coordination with the Office of Special Counsel and the VA 
Inspector General. The VA has made great strides in setting up 
the Office of Accountability Review, but I am interested in 
exploring whether more needs to be done and whether the office 
primarily responsible for handling investigations outside the 
scope of the OSC or IG is better positioned outside the VHA. I 
am also interested in exploring whether the idea of 
centralizing complaints in a specific office could lead to 
better VA-wide accountability and responsiveness for our 
veterans.
    H.R. 1128 is a response to cyber security concerns within 
the VA and how best to balance the competing interests of 
ensuring that the VA has the proper tools to fulfill its 
mission, while also ensuring that information is kept as secure 
as possible. Cyber security is an ever growing threat and 
problem and new tools and tactics are developed daily, both by 
those intent on improperly collecting information and the 
efforts of the Federal Government and the private sector to 
protect our information.
    I look forward to working with the chairman and my 
colleagues as we look at these bills before us today and begin 
the process of matching solutions to problems in the most 
effective manner possible.
    Ms. Kuster. Thank you, and I yield back.
    Mr. Coffman. Thank you, Ranking Member Kuster.
    We will now hear from Chairman Jeff Miller from the State 
of Florida, who will be speaking in support of H.R. 571, the 
Veterans Affairs Retaliation Prevention Act of 2015.

OPENING STATEMENT OF CHAIRMAN JEFF MILLER OF THE FULL COMMITTEE

    Chairman Miller.
    Mr. Miller. Thank you for the recognition, Mr. Chairman. It 
is a pleasure to be with you.
    I want to echo your comments in your opening statement as 
it relates to the fiasco at the Aurora facility. Your Denver 
Post yesterday aptly headlined an editorial, ``Still No 
Accountability,'' and I don't see any on the horizon. To think 
that this Congress would raise an existing legislative cap of 
$800 million by almost a billion more without a plan and a way 
ahead is absolutely ludicrous.
    And we as a committee, both Republicans and Democrats, have 
been asking for an answer from VA for really months now, but 
the investigation, as you well know--and I salute you, your 
current ranking member and your former ranking member for 
delving into it deeply to try to get a solution out in front of 
the VA and, unfortunately, they did not heed many of the 
warnings that were given. Unfortunately, the individuals that 
were in charge are still employed by the VA, several of them 
receiving very generous bonuses for their ineptitude and their 
incompetence. And to still be employed by the taxpayers after 
this debacle is egregious. So I want to thank you for your 
diligence and the entire Colorado delegation in staying on top 
of the issue.
    I want to talk about H.R. 571, which is the Veterans 
Affairs Retaliation Prevention Act of 2015. You know, we could 
name it anything, the Whistleblower Protection Act, whatever it 
may happen to be. But you all know during 2014 when the scandal 
erupted basically around Phoenix we found it was much more 
systemic, that retaliation and bureaucrat corruption really 
gripped the VA because people were fearful, but there were 
whistleblowers that were trying to come forward and do the 
right thing and let people know that there were problems that 
existed within the VA. And the hallmark of the culture that 
existed there remains really rampant today within the VA 
against VA employees who speak up to try to fix problems that 
exist within the agency.
    So these problems were so widespread in 2014 that the 
Office of Special Counsel was inundated with more whistleblower 
complaints than all the other federal government agencies 
combined. Unfortunately, despite promises from the leadership 
at VA at that time that whistleblower retaliation would no 
longer be tolerated, occurrences continue within the agency and 
a lack of any meaningful accountability shows that it is really 
not the case. Proper oversight of any federal agency cannot be 
done effectively without employees within that agency informing 
the Congress and other oversight bodies of what is going on. 
Over the years, numerous federal statutes have been passed to 
provide added protection to whistleblowers, but many VA 
supervisors have found a way to really circumvent the law that 
is there to protect these individuals and hopefully encourage 
them to come forward and bring information to the bodies that 
need them to do their oversight. And this bill intends to put 
an end to the retribution and the repercussions.
    Specifically, H.R. 571 would provide VA employees who seek 
to report potential government waste, criminal behavior or 
compromised healthcare services within the VA a set process to 
fix problems at the lower level possible while affording them 
improved protection from retaliation. This legislation will 
also prohibit superiors from retaliating against employees who 
report or assist in reporting problems to the VA, to the 
Inspector General, to Congress, or the GAO. Employees who serve 
as a witness in investigations and those who refuse to perform 
illegal acts in the course of their employment will also be 
protected. To ensure accountability, this bill will provide 
meaningful penalties to VA employees who are found to have 
retaliated against another employee for filing, simply filing a 
whistleblower complaint.
    Specifically, the retaliating employee should receive a 
suspension or removal from federal service, a fine to repay the 
expense borne by the Federal Government in defending their 
retaliatory behavior, a forfeiture of bonuses received while 
the retaliation occurred, and a prohibition of receiving future 
bonuses for a one-year period.
    Finally, this legislation requires improved training to be 
provided to all VA employees on the protections that are 
afforded to employees that are making complaints and the 
repercussions that retaliating employees will face if they seek 
to suppress positive change.
    Look, our American veterans deserve no more than the 
quality services that VA provides and those benefits that they 
have earned. So improvements of those services often come in 
the form of suggested fixes by employees. And this commonsense 
legislation, we all do commonsense legislation, this bill 
certainly is one of them, would provide the process to safely 
suggest these fixes while giving Secretary McDonald and all 
secretaries in the future the tools to hold accountable 
employees who seek to prevent change within their agency.
    So I look forward to working with this subcommittee, our 
veterans service organization partners in the VA and other 
stakeholders on this bill, because protecting the conscientious 
VA employees who report waste and wrongdoing within VA must be 
among our constant priorities.
    I appreciate you, Mr. Chairman, to the ranking member, Ms. 
Kuster, for holding this hearing and for your hard work and 
leadership on this Subcommittee on Oversight and Investigation. 
I appreciate really the opportunity to be with you this 
morning.

    [The prepared statement of Chairman Jeff Miller of the Full 
Committee appears in the Appendix]

    Mr. Miller. I yield back.
    Mr. Coffman. Thank you, Chairman Miller.
    Now we will hear from the Honorable Tim Huelskamp from the 
State of Kansas, who will discuss his bill, H.R. 1015, the 
Protecting Business Opportunities for Veterans Act of 2015.
    Dr. Huelskamp. Thank you, Mr. Chairman, for the opportunity 
to testify in support of H.R. 1015, the Protecting Business 
Opportunities for Veterans Act.
    Over the years, this committee has received testimony, 
Inspector General's reports and other reports of numerous 
entities who illicitly took advantage of set-asides rightly 
reserved for service-disabled-veteran-owned small businesses. 
As a member of this subcommittee, as well as the House Small 
Business Committee, I am very concerned about the fraud and 
abuse of these programs, and I think they need stricter 
oversight and enforcement. This act would apply to those small 
business concerns owned and controlled by a veteran with a 
service disability, as well as small businesses controlled by 
veterans who received federal contracts from the VA.
    The bill is fairly simply. It requires that as part of the 
contract, the VA must obtain a certification the business will 
comply with the requirements already written into the law, and 
it will specifically specify how they intend to meet the 
requirement 50 percent of the contracted service work be 
performed by a veteran-owned business or a service-disabled-
veteran-owned business with this certification, as well as a 
requirement that the Office of Small Business and Disadvantaged 
Business Utilization and the VA's Chief Acquisition Officer 
will implement a process that will allow better oversight and 
enforcement of what we all intended in the law and that is to 
make certain these set-asides go to veterans.
    With these changes, law enforcement will have the necessary 
tools to crack down on corrupt contractors who use these pass-
throughs and other methods to take advantage of set-asides that 
should be and are lawfully reserved for veterans. I think the 
bill is necessary to direct the office and the VA chief 
acquisition officer to do what they should have been doing all 
along, and that is to monitor and enforce compliance.
    We have had a hearing on this last year and moved this 
through the committee, and I am bringing it back forward 
because, again, I want to make sure these contracts are 
accessed and are taken advantage by deserving veterans and not 
some of these illicit contracts, Mr. Chairman. So I appreciate 
the opportunity to visit very quickly about it. Again, we have 
discussed this before and hopefully we can move forward again. 
I yield back.
    Mr. Coffman. Thank you, Dr. Huelskamp.
    We will now hear from the Honorable Phil Roe from the State 
of Tennessee, who will be speaking in support of his bill, H.R. 
1016, the Biological Implant Tracking and Veterans' Safety Act 
of 2015.
    Dr. Roe.
    Dr. Roe. Thank you and the ranking member for allowing me 
to be here this morning and speak.
    And just to reiterate what the Chairman said in the Aurora, 
I didn't think it was possible to make politicians speechless, 
but they have succeeded beyond my wildest expectations. And I 
look at a billion dollars at how much veterans' healthcare you 
can provide, physical therapy, medications, cancer surgery, 
whatever the therapy may be that is not available in a limited 
budget.
    And I looked at this and, having helped run hospitals and 
medical practices, the interest payments alone on this if you 
were in the private world would be over $70 million a year. 
That is not paying it off. You would have to cash-flow that, 
your operating expenses, your salaries, your depreciation, all 
of those things. There is no way that this could possibly 
function. And I am one vote, but I am not going to vote for 
another penny until I go visit that place and I have some 
assurances that the veterans are going to get what they are 
paying--the taxpayers are going to get what they are paying 
for. I mean, I think we have to do that as a committee.
    And I certainly commend you all for keeping an eye on this, 
Mr. Chairman, and I thank you for that. And, Doug, you too. I 
know you are frustrated and I am too, I share your frustration. 
But thank you all and it is a pleasure to present H.R. 1016, 
the Biological Implant Tracking and Veterans' Safety Act, 
before this committee for consideration.
    A frightening GAO report in January of 2014 found that the 
VA does not use a standardized process for tracking biological 
tissue from cadaver donor to living veteran recipients. In the 
event of a recall, it would be virtually impossible to track 
down which patient had received the contaminated tissue. The 
same GAO report detailed that the Veterans Health 
Administration does not always ensure they are purchasing 
tissue from biological implant vendors that have registered 
with the FDA and does not maintain an inventory system to keep 
the expired tissues from remaining in storage alongside 
unexpired tissues.
    This GAO report and our VA committee staff had discovered 
that the VA often uses a loophole in Title 38 of the U.S. Code 
8123 that allows it to buy biological implants on the open, 
unregulated market, which it does in 57 percent of its 
biological implant purchases. H.R. 1016 would require the 
procurement of biological implants from vendors on the federal 
supply schedules which have been appropriately vetted for 
biological implants not on the federal supply schedule but 
requested by clinicians. My bill requires justification and 
approval of open-market purchases under the federal 
acquisitions regulation on a case-by-case basis, rather than 
simply granting a blanket waiver as provided in Title 38.
    H.R. 1016 would direct the Secretary of Veterans Affairs to 
adopt the FDA's unique device identification system for 
labeling of all biological implant tissue and implement an 
automated inventory system to track the tissue from donor to 
implant recipient. This legislation would also require all 
biological implant tissue to be procured through vendors that 
are registered with the FDA, accredited by the American 
Association of Tissue Banks, and use FDA's unique device 
identification system.
    Mr. Chairman, the six million veterans served annually by 
VHA deserve the high standard of patient care in the nation. 
Implementation of H.R. 1016 would help establish the VA as an 
industry leader in biological implant safety and 
accountability.
    I want to thank the Oversight and Investigation 
subcommittee staff for their help in developing this 
legislation, which truly puts veterans patients first.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Coffman. Thank you, Dr. Roe.
    We will now hear from the Honorable Jackie Walorski from 
Indiana, who will be speaking about her directive, the Veterans 
Information and Security Improvement Act.
    Ms. Walorski.
    Ms. Walorski. Thank you very much, Mr. Chairman. Good 
morning to all my fellow colleagues.
    This H.R. 1017 comes from feedback the committee received 
at a members-only briefing in December of 2013, which the VA, 
the VA's Office of Inspector General and the Government 
Accountability Office all attended. At this briefing, the 
committee provided an overview of VA's information security 
vulnerabilities using VA's own internal documents and previous 
testimony from VA's IG.
    The committee has had numerous meetings, sent letters and 
held a hearing in November of 2014 to address IT security 
weaknesses. Unfortunately, VA's lack of cooperation has been a 
longstanding issue that continues to this day. Independent 
information security experts verified HVAC's findings about the 
VA's critical network vulnerabilities, including the following.
    Within VA's 420,000 computers, there are five 
vulnerabilities on 95 percent of those computers. VA employs 
tens of thousands of outdated operating units. Because of 
VISTA's vulnerabilities, VA stated that a data breach to 
financial, medical and personal veteran and employee 
information will occur with no way of tracking the source of 
the breach. VA's network has been compromised at least ten 
times since March, 2010.
    And finally, and probably most troubling, is that the VA 
recently proclaimed they had a clean bill of health on network 
security. However, the committee found that a state actor had 
penetrated VA's network around September of 2014. This was 
substantiated by another government entity, after which the 
committee briefed Secretary McDonald. VA was not aware of the 
intrusion, which by all accounts was then not detected by VA's 
CRISP Einstein 3 or by any active review being conducted by a 
third-party contractor.
    Over the past 20 years, VA's independent auditor, the IG 
and the GAO have all reported numerous persistent weaknesses in 
the VA's security, placing veterans' personal information at 
risk. Despite the GAO's and IG's testimony and the committee's 
evidence that came from the VA itself, VA officials did not 
agree with our findings from the briefing. They will not 
acknowledge that critical security vulnerabilities exist.
    It is important to understand the critical nature of the 
security failures we are discussing today. These failures are 
not due to a lack of resources, they are due to a lack of 
priorities, leadership and proper federal guidance. We need 
stronger, more focused action to ensure the VA fully implements 
a robust security program. That is why we need this bill.
    I am confident this directive will provide VA with a clear 
IT roadmap and take away any guesswork in order to achieve a 
risk-based approach to addressing these challenges. GAO and a 
number of private sector companies also agreed and stated that 
if the directive is implemented it will allow VA to refocus its 
efforts on steps needed to improve the security of its systems 
and information.
    This bill establishes an explicit plan of action to resolve 
VA's IT security weakness identified by the committee and 
others. The plan is taken from common federal and industry best 
practices.
    Specifically, the bill directs the secretary to do the 
following. Reclaim, secure and safeguard VA's network; defend 
the work stations from critical security vulnerabilities; 
upgrade or phase out unsupported and outdated operating 
systems; secure Web applications from vital vulnerabilities; 
protect VISTA from anonymous user access; and comply with 
federal information security laws, OMB guidance and NIST 
standards.
    To improve transparency and accountability, the bill also 
directs the secretary to submit to the committee a biannual 
report, including a description of the actions taken by the 
secretary to implement and comply with this directive. The IG 
will also be required to submit to the committee an annual 
report that includes a comprehensive review of VA's execution 
of this directive.
    Finally, on a monthly basis the secretary will submit to 
the committee reports on any discovered security weaknesses.
    Thank you, Mr. Chairman. I yield back.
    Mr. Coffman. Thank you, Ms. Walorski.
    We will now hear from the Honorable Ann Kirkpatrick from 
Arizona, who will discuss her bills, H.R. 1128, the Department 
of Veterans Affairs Cyber Security Protection Act, and H.R. 
1129, the Veterans Whistleblower and Patient Protection Act of 
2015.
    Ms. Kirkpatrick. Thank you, Chairman Coffman and Ranking 
Member Kuster. Members of the committee and staff, it is nice 
to see you this morning. And I really thank you for all you are 
doing for our veterans and I appreciate that you included my 
two bills in this hearing. So thank you very much.
    H.R. 1128, the Department of Veterans Affairs Cyber 
Security Protection Act, and H.R. 1129, the Veterans 
Whistleblower and Patient Protection Act of 2015, are two bills 
that will improve the lives of veterans. They will bring much 
needed accountability to the VA and protect VA employees and 
patients who report wrongdoing.
    The Cyber Security Protection Act aims to protect veterans' 
personal information and improve VA information security 
without compromising the VA's mission to provide healthcare 
benefits and services to veterans.
    After reported VA network compromises in a GAO report last 
year that found VA IT networks were vulnerable to security 
breaches, I believe legislation is necessary to ensure the VA 
takes appropriate measures to safeguard veterans' personal 
information. This bill offers commonsense steps to do just 
that.
    First, it requires the VA to report quarterly to Congress 
on actions and plans to address known information security 
vulnerabilities and provide a timetable for addressing them.
    Second, it mandates a report on VA actions to hold 
employees accountable for data breaches. The report would 
include VA's proposed reorganization of its information 
security infrastructure.
    Third, it requires the VA to develop an information 
security strategic plan that protects veterans' information and 
anticipates future cyber security threats. It requires the VA 
to recruit and train employees with skills and expertise in 
information security, and to update VA information technology.
    This bill is not creating requirements that are so rigid 
that the VA is unable to perform vital services such as 
referring patients to other healthcare providers or granting 
veterans and families the benefits they deserve. I urge all of 
you to support this bill.
    As a member of the House Veterans' Affairs Committee in the 
previous congress, I sat through hearing after hearing with 
many of you after whistleblowers at the Phoenix VA and other VA 
medical facilities exposed a VA-wide patient access crisis and 
the manipulation of patient access data. Last month I heard 
from two whistleblowers at the Phoenix VA, who reported 
mismanagement of the Phoenix VA's suicide prevention and 
substance abuse treatment program.
    If not for the courage of these whistleblowers, it is 
unknown how long these practices would continue to persist. 
Unfortunately, many VA employees or patients who attempt to 
report wrongdoing face retaliation.
    The Veterans Whistleblower and Patient Protection Act of 
2015 would encourage those who wish to report wrongdoing to 
come forward without fear of retaliation. This bill would 
ensure that the whistleblower retaliation reports and patient 
complaints are handled at the highest level in the office of 
the VA secretary. This ensures that anyone reporting wrongdoing 
does not risk retaliation from local supervisors who refuse to 
act.
    This office of whistleblower and patient protection would 
equip the secretary with an investigatory arm to take action on 
allegations. The office would create one national hotline for 
VA employees and patients to anonymously report whistleblower 
retaliation or patient safety and treatment complaints, 
investigate patient claims, and serve as the only VA office 
permitted to investigate whistleblower retaliation complaints. 
It would report the results of its investigations and recommend 
actions to the VA secretary, and coordinate efforts between the 
VA Office of Inspector General and the Office of Special 
Counsel to ensure complaints are thoroughly investigated and to 
prevent duplicate investigations.
    We can continue writing letter after letter to the VA 
secretary asking for the protection of VA whistleblowers' 
rights as more of our constituents come forward or we can pass 
legislation that will address this issue.
    Again, I urge the members of the committee to support the 
bill. I know that many of you on the committee have similar 
legislation and I just want to say I look forward to working 
with you, so that we can merge this legislation into one good 
bill that we can pass out of the House of Representatives and 
really make a difference for our veterans. So thank you very 
much.
    I yield back.
    Mr. Coffman. Thank you, Ms. Kirkpatrick.
    On our first panel, we will hear from Ms. Meghan Flanz, 
Director of the VA's Office of Accountability Review. She is 
accompanied by Dr. Michael Icardi, the National Director of 
Pathology and Laboratory Medicine Services for the Veterans 
Health Administration; Mr. Stanley Lowe, Deputy Assistant 
Secretary for Information Security and VA Chief Information 
Security Officer; Mr. Dennis Milsten, Associate Executive 
Director for the Office of Operations, Office of Construction 
and Facilities Management for the Department of Veterans 
Affairs.
    Ms. Flanz, you are now recognized for five minutes to 
provide your opening remarks.

 STATEMENT OF MEGHAN FLANZ, DIRECTOR, OFFICE OF ACCOUNTABILITY 
  REVIEW, DEPARTMENT OF VETERANS AFFAIRS. ACCOMPANIED BY: DR. 
 MICHAEL ICARDI, NATIONAL DIRECTOR OF PATHOLOGY AND LABORATORY 
  MEDICINE SERVICES, VETERANS HEALTH ADMINISTRATION; STANLEY 
LOWE, DEPUTY ASSISTANT SECRETARY AND CHIEF INFORMATION SECURITY 
   OFFICER, DEPARTMENT OF VETERANS AFFAIRS; DENNIS MILSTEN, 
 ASSOCIATE EXECUTIVE DIRECTOR, OFFICE OF OPERATIONS, OFFICE OF 
CONSTRUCTION AND FACILITIES MANAGEMENT, DEPARTMENT OF VETERANS 
                            AFFAIRS

                   STATEMENT OF MEGHAN FLANZ

    Ms. Flanz. Good morning and thank you, Mr. Chairman, 
Ranking Member Kuster, and other members of the subcommittee.
    We appreciate the opportunity to be here today to discuss 
VA's views on the seven bills that do cover a wide range of 
topics, whistleblower protection, how VHA handles biological 
implants, information technology, small business contracting, 
and VA's Denver hospital project.
    Because the committee has our detailed written statement on 
the bills in hand, I will limit my remarks to our brief 
observations on each bill, so we can then focus our time on 
answering your questions.
    Two of the bills today concern whistleblower rights and 
protections. VA has certainly had and continues to have 
problems ensuring that whistleblower disclosures receive prompt 
and effective attention, and that whistleblowers themselves are 
protected from retaliation. It is critical that all VA 
employees and supervisors share trust and mutual respect as 
they share information, especially if an employee is seeing 
something that is not working for the benefit of our veterans, 
something that is against the law, or something that is just 
not right.
    VA is absolutely committed to ensuring fair treatment for 
employees who bring these deficiencies to light. We are 
collaborating closely with the Office of Special Counsel, the 
independent office responsible for overseeing whistleblower 
disclosures and retaliation claims, to ensure that all VA 
supervisors understand their roles and responsibilities and to 
speed assistance to any employee who may be experiencing 
retaliation.
    Mr. Chairman, we believe strong leadership, effective 
training and close collaboration with OSC and with this 
committee are the keys to the cultural change the department 
requires. Our employees and the veterans we serve depend on the 
work you and our other stakeholders are doing to address our 
deficiencies head on. And of course we are eager to discuss 
these efforts with you and to get the benefit of your insights.
    VA understands the urge toward legislative action in the 
wake of reports of troubling individual VA whistleblower cases. 
However, as we have detailed in our written testimony, we are 
concerned that some aspects of H.R. 571 would be unworkable in 
practice and could lead to unintended negative consequences. We 
are particularly concerned that the bill adopts a one-size-
fits-all rule that would impose the same investigative, 
reporting and disciplinary requirements on all VA supervisors 
regardless of their grade or function.
    It is important to note that VA has more than 30,000 
supervisors, fewer than 500 of whom are senior executives. Many 
of our first-level supervisors have only minimal education and 
are at relatively low pay grades. While of course all 
supervisors must respond appropriately to employees' 
disclosures and all must protect employees from retaliation, we 
believe the processes by which supervisors respond to employee 
disclosures must be calibrated to different supervisors' 
capabilities and roles. We also want to protect the trusting, 
well-balanced supervisor-subordinate relationships that do 
exist in many VA work units while correcting relationships that 
are out of balance or otherwise not working well.
    H.R. 1129 focuses on a centralized process for 
investigation of disclosures. We are concerned that this bill 
might unnecessarily duplicate or replace existing functions now 
belonging to OSC, to VA's reconfigured Office of the Medical 
Inspector, or to the Office of the Inspector General.
    Also on the agenda today is H.R. 593, which would extend 
the authorization for the replacement major medical facility in 
Denver and set out requirements for an agreement with the Army 
Corps of Engineers to carry that project to conclusion. 
Needless to say, VA is determined to overcome earlier setbacks 
in this project to put it on the best track for success for 
Colorado veterans. We understand that the committee has 
questions and concerns about that project and Mr. Milsten is 
prepared to address those in detail.
    Also on the agenda are two bills regarding information 
technology, particularly information security. We appreciate 
the goals of H.R. 1017, but as we have stated, we are concerned 
that detailed statutory requirements for management of IT 
operations might prove too inflexible for VA to respond 
effectively to the constantly evolving cyber security 
landscape.
    H.R. 1128 does use a less prescriptive approach. VA 
appreciates and supports the goals of the bill and has no 
objection to some of the reporting requirements, but is 
concerned that some requirements might be quite onerous 
relative to the benefits they would yield. VA will be glad to 
work with the committee on those aspects of H.R. 1128 that 
appear problematic.
    H.R. 1016 would require VA to adopt specific systems and 
protocols for the procurement and tracking of biological 
implants, and would set requirements for inspections and 
audits. As our written testimony has stated, VA agrees with the 
general purpose of the bill, but has concerns about some 
specifics. Dr. Icardi can address those matters in detail.
    Finally, VA has reviewed H.R. 1015, the Protecting Business 
Opportunities for Veterans Act of 2015. While we support the 
goal of the bill, we would like to clarify some technical 
issues and ambiguities before we set out a position on it. I 
know VA's small business program and procurement specialists 
will be glad to follow up with the committee on that bill.
    Mr. Chairman, thank you again for the opportunity to 
testify. We are now glad to answer questions the members of the 
committee may have.
    [The prepared statement of Meghan Flanz appears in the 
Appendix]
    Mr. Coffman. Thank you, Ms. Flanz.
    Mr. Milsten, yesterday the VA issued a new cost estimate to 
complete the new VA hospital in Aurora, Colorado now at $1.73 
billion. As the Associate Executive Director of the Office of 
Construction and Facilities Management, please explain how VA 
went from a cost not too long ago, actually last year the 
estimate was $604 million and now we are at $1.73 billion. How 
did we get here?
    Mr. Milsten. In my opinion, we got here by not getting 
those requirements right the first time that we started this 
project back in 2004 when noted the project that was a joint 
facility with the University of Colorado and DoD. As this 
project continued to grow through its processes, it did not 
have the benefit of a good, rigorous requirements development 
program and a good, rigorous program to control requirements 
growth as it went through the design process.
    As we entered into the construction contract with the 
contractor, we established a ceiling and we rushed to get to a 
firm target price with the contractor as we saw the market in 
Denver continuing to escalate. The problem we had at that point 
was the design was not complete. The design continued to evolve 
and now we find ourselves at this crossroads.
    Mr. Coffman. I think that probably an easier explanation 
would be pure incompetence, pure incompetence.
    Mr. Milsten, what are the funding options VA is considering 
to finally complete the Aurora construction project for 
Colorado veterans?
    Mr. Milsten. VA has considered many different funding 
options, including transfer authority, looking at where we can 
take it from other options within the department, and we are 
committed to working with Congress to find the funding 
available for this project.
    Mr. Coffman. Mr. Milsten, when will VA hit the 
authorization cap on the project?
    Mr. Milsten. We expect to hit the authorization cap of 880, 
which is ten percent above the 800, mid-May of 2015, this year.
    Mr. Coffman. What is the updated completion date of the 
Aurora construction project now?
    Mr. Milsten. In a meeting yesterday with both KT and the 
Corps there was a discussion about late summer of `17, if we 
can continue and get to a construction contract between the 
Corps of Engineers and KT this summer. So that would be about 
24 to 30 months after that.
    Mr. Coffman. Will VA seek funding again in fiscal year 
2016?
    Mr. Milsten. I know that the `16 President's budget has 
already appeared and the opportunity to amend that I am not 
prepared to talk about.
    Mr. Coffman. Okay. After the gross mismanagement that 
occurred in Aurora, why shouldn't the Army Corps of Engineers 
or someone else build all major construction projects for VA? I 
mean, I think that the personnel involved in this project, you 
being one of them, simply in my view, let me use a Marine Corps 
phrase of couldn't lead starving troops to a chow hall. And 
there is no way that the American taxpayers should have any 
confidence in you, the veterans of this country should have any 
confidence in you.
    At this point in time, are you prepared to relinquish that 
authority or at least is VA taking a position that somebody 
else, the Army Corps of Engineers or some other qualified 
entity, ought to be taking over these major construction 
projects from the Department of Veterans Affairs?
    Mr. Milsten. We are committed to looking at the 
opportunities that exist with using somebody like the Corps of 
Engineers as the construction agent. We have convened and asked 
the Corps to come in and study our processes, our procedures, 
to see what improvements can be made, and to offer an opinion 
on whether it is the appropriate process to go forward or look 
at other options. We as a department have not ruled out the 
possibility of turning construction management over to the 
Corps of Engineers, especially where it is appropriate, and we 
are doing that in the Denver project.
    Mr. Coffman. Ranking Member Kuster.
    Ms. Kuster. Thank you, Mr. Chairman.
    First let me say that I share across the aisle here the 
shock and on behalf of all of the veterans and all of the 
taxpayers outside of the great state of Colorado, not only is 
this a tragedy because of the request that you are coming 
forward to ask for a billion dollars and I join Dr. Roe in what 
that money could be used for. We like to say in the Granite 
State, we are frugal Yankees, we don't throw taxpayer money 
around. But what I am most concerned about is that these are 
facilities that can't be built elsewhere. There are lots and 
lots of veterans in need all across our country.
    And so I want to get at a more basic question, which is 
whether or not the VA is up to the task or has the capacity to 
take on these modern-day facilities and whether we shouldn't 
revamp--because this is not the first example. I mean, this is, 
I have to say, the most shocking example, but I can remember in 
my first term these were the most troubling hearings we 
attended talking about facilities in other parts of the 
country. And I would like your comment, if you would, candidly, 
about whether it makes any sense at all for the VA to try to be 
building these facilities.
    I can't imagine this kind of money in the private sector. I 
mean, Dr. Roe has more experience with hospitals, but I know 
what hospitals cost in New Hampshire, it is not a billion 
dollars and it is certainly not--you are going to get up to 
close to $2 billion here by the time you are done.
    So I would welcome your comments on that.
    Mr. Milsten. As I stated earlier, the department is 
committed to looking at whether it is appropriate for us to 
continue. That is why we have asked the Corps of Engineers to 
come in and conduct a study of our processes and procedures, 
and to come back and offer an opinion. And I know that the 
leadership of the department is committed too if it makes sense 
for the Corps of Engineers or some other federal agency to 
become our construction execution agent, we will be prepared to 
execute that.
    Ms. Kuster. Well, I guess my question goes beyond that, and 
maybe this is for another day and maybe meetings with Secretary 
McDonald. I am not talking about bringing the Army Corps in on 
this project, I am talking about whether the VA should be in 
the business of building hospitals at all.
    But let me ask a different question, because my time is 
limited. My question goes to, you used the term, transfer 
authority. Has there been any discussion at all with either the 
University of Colorado or the Department of Defense taking over 
the construction of this facility, owning this facility, you 
selling this facility?
    I just feel like, with all due respect and it is not that 
people haven't tried, I just feel like people are out of their 
league here. Is there somebody else in Denver--and I am not as 
familiar with this situation obviously as my chair--has there 
been discussion about simply the VA not being the party that 
owns this facility?
    Mr. Milsten. There have not currently been any discussions. 
There was discussions early on about a shared facility between 
DoD and the University of Colorado Hospital System, that was 
back in----
    Ms. Kuster. And is that no longer happening? That is no 
longer the----
    Mr. Milsten. Back during that period, it was deemed that 
the voice from veterans that wanted veteran identity, because 
one of the things about our hospitals is that it is more than 
the treatment of our veterans, it is a place they go for their 
camaraderie. And the other issue was the issue of shared 
governance of a facility and that caused----
    Ms. Kuster. And I certainly do appreciate and I have heard 
from my own veterans in New Hampshire about veteran-centered 
care and all of that.
    I guess I would just close by saying, on behalf of the 
taxpayer, I feel that we can do better by our veterans without 
building the Taj Mahal, and with all due respect to Aurora, 
Colorado.
    So I yield back.
    Mr. Coffman. Thank you, Ranking Member Kuster.
    Mr. Lamborn of Colorado.
    Mr. Lamborn. Thank you, Mr. Chairman. And I will be very 
brief, because I am just still stunned by the news that this 
was going to cost so much over what the original cost was--not 
just the time delay, but the cost increase. So I will just say 
I back up my Chairman's position a hundred percent. I am still 
staggered and stunned by what is going on.
    And there has to be accountability, we have to change the 
way things are done in the future. Somehow we have to find the 
money, who knows where, to finish a decent facility. Maybe not 
everything that was on the drawing board, but a decent facility 
so that veterans can start getting their care, without 
sacrificing the facilities around the country. You know, they 
have legitimate needs also and that money is going to hurt 
someone else's project. That is not good. We are just in an 
impossible situation here and it is extremely frustrating and 
angering.
    Mr. Chairman, I yield back.
    Mr. Coffman. Thank you.
    Mr. Walz.
    Mr. Walz. Well, thank you, Mr. Chairman, and thank you all 
for being here.
    Again, I am not going to pile on this, but I am going to 
express, I think you get it. Today as we sit here, tens of 
thousands of veterans are going to be treated with the highest 
quality professional care, get what this country promised them, 
what they have earned and deserve, and that is going to be 
distracted by what is absolutely indefensible.
    And I am going to answer the question for them. The answer 
is no, you cannot do the construction. My concern--and I am not 
going to argue this point, I don't think we should be in a 
double-wide trailer and I do believe an atrium is a gathering 
space. And my question is, that could have been incorporated 
into the original design and pay for it what we pay for it. You 
don't need to overrun it to get the aesthetics, we have proved 
that time and time again.
    And my concern now starts to be is because I understand 
this, construction of medical facilities is very specific and 
involves the involvement especially of the practitioners. So my 
question is, if these things are botched, what do the operating 
suites look like? When are we done? Are the walls too close? 
Does the gurney not come out? We have seen these things happen 
in some of our facilities.
    And then I am back to this point--and I know this is all of 
you, you are getting the brunt of a lot of frustration that is 
coming on this, now we are caught in this conundrum much like 
IT. We have time and time and time again allocated money to IT 
that is absolutely necessary, absolutely critical and 
absolutely needs to be done. And when you come and testify and 
say there are gaps in our IT, I believe you. Our problem is 
this now, we are caught in a half-finished project that has us 
so frustrated and we are going to be asked to give more money. 
And I am in the same point as many of them, I have said this 
about IT, not one damn penny until you prove that you can use 
it wisely. And I am in that same boat with this and it is 
frustrating.
    So if there is anything all of you can do to convey that. I 
know there is reasons, but there is no excuse for this. And at 
this point in time, I think what you are seeing on this is you 
are no longer going to get to decide whether you build 
hospitals or not, that is where this is headed. So what we need 
is your help in how do we transition this, how do we get the 
best practices, how do we move to make sure that happens?
    I want to move to just one other subject before I go back. 
Mr. Miller's bill. I think all of us feel very strongly about 
the ability of employees to be able to speak freely, the 
ability to be able if there is a problem to come forward, and I 
think whistleblower protection is absolutely crucial. I am 
concerned and I ask your opinion on this. I know sometimes when 
you do this, though, is there a chance we are going in creating 
an atmosphere of fear, of mistrust amongst employees? Is the 
best laid plan and intentions actually going to have another 
chilling effect on how this happens?
    Ms. Flanz, it is a somewhat subjective question, but if you 
could help me understand what it will do to the culture.
    Ms. Flanz. I would certainly like to try. Thank you.
    The underlying purpose of all of the whistleblower 
protection laws and schemes is to encourage the candid 
disclosure of information. And there also over the years have 
needed to be added to that a process for penalizing those who 
retaliate against individuals who do bring something forward. 
Our concern is about balancing the punitive measures in such a 
way that the entire structure doesn't actually act contrary to 
the underlying purpose.
    And our concern with this particular bill is mostly about 
the relationship between the front-line staff and that first-
level supervisor. That relationship is often carried out right 
in the middle of patient care, right in the middle of providing 
memorial services. It is where our veterans are, where our 
mission is carried out is right there.
    Our concern is in creating a relationship through a process 
that may be necessary to ensure retaliation doesn't take place. 
We don't want to create a relationship where we are 
transferring the fear maybe from that front-line staffer to the 
first-level supervisor who may be so concerned about, oh, my 
goodness, I am now going to need to create this record to go 
back to this person who has made a disclosure, I have got a 
two-day window to do that, what if I don't do that right. What 
if later I am in the course of supervising this individual, I 
do something that causes the individual to believe he or she 
has been retaliated against. There becomes a different culture 
and relationship around that supervisor-subordinate exchange 
that may not actually be as supportive of the free flow of 
information as we would like to see those relationships be.
    Mr. Walz. Well, I think that is a valid point. I would be 
interested in seeing if there are some suggestions on this, 
because this is that touchy balance between due process and 
protecting that whistleblower's right, and I would say 
encouraging them to be able to come forward. And it is deep, it 
is cultural, it is about trust, and we want to make sure we get 
those pieces right.
    Thank you, Chairman. I yield back.
    Mr. Coffman. Thank you, Mr. Walz.
    Dr. Phil Roe.
    Dr. Roe. Thank you, Mr. Chairman.
    Just to dovetail off what Mr. Walz was saying. In my office 
at home, we have a bulletin board full of requirements that we 
have to put up with. Wage and hour requirements, OSHA, on and 
on and on. And all of those federal regulations and rules, I 
can't get away with the excuse of, well, I have 30,000 people 
who are not as well paid and they are not all this or not all 
that, I have to comply. And I don't see why you can use that as 
an excuse when you expect the private sector to comply--not 
you, but we the government, we the Congress, expect the private 
sector to comply with these things.
    So I don't think that is a valid reason. I understand it is 
hard, I do get that. As an employer for 30 years, I got that, 
but we have to do that. And we expect the VA to do the same 
thing that the private sector is doing.
    Now, just a quick comment. The VA does a lot of things 
extremely well, there is no question about that. I got a letter 
from a lieutenant colonel yesterday who was very appreciative. 
He is a Korean War veteran and a Vietnam veteran, he said he 
survived both. He was actually thanking the VA and the 
government for his care. And I am writing him a letter back 
thanking him for his service. We should be thanking him, not 
the other way around. Building hospitals ain't one of them that 
they do well. And I said this at a hearing not long ago, I 
don't think the VA ought to be allowed to build another 
hospital.
    I look at $930 million, my Lord, I could build a palace in 
Tennessee for that, I could build two palaces for that, maybe 
three for that much money. And that would be to put places--we 
go out where we live to try to find places that save the 
government money. I have got a CBOC at home that pays $1 a year 
in rent, $1. We have hunted out trying to save that. And it is 
not just it is harming veterans in Colorado and veterans who 
may move to Colorado, it is harming veterans in Tennessee and 
Kansas and Indiana and all around--New Hampshire and around the 
country. So I think we have got to look at that.
    I want to get to my bill just a little bit and, Dr. Icardi, 
if you would help me a little bit. Are there any issues with 
that bill that you can see from a VA standpoint that would be 
unreasonable to be able to take a piece of tissue that is 
implanted into a person, a patient, and then be able to follow 
that in case there is a recall, an infection with it?
    And one of the reasons that we brought this up was that I 
saw what a poor job the VA did in notifying the veterans based 
on what happened with colonoscopies. And this was I guess five, 
four or five years ago. And other issues where notification 
didn't take place. If you don't have a tracking system, that 
veteran, that patient may never know and we may never be able 
to find them, that individual that got that specific piece of 
tissue.
    So do you see any problem with this? Just implementing a 
tracking system so you can notify people, you get it from a 
certified tissue bank, any problems there?
    Dr. Icardi. Yes. First, Doctor, I want to thank you for 
bringing this up again, because this is an important issue and 
by bringing this bill up you have kept it in the limelight and 
I want to personally thank you for that.
    One of the major issues that you have with tracking 
something is how do you identify it and, unfortunately, for 
tissue right now there is not a really uniform identifier that 
will follow the tissue from the donor to the final disposition. 
And there is a large number of steps that go through there. In 
the previous bill that we had, we were waiting to hear what the 
FDA was going to do with the UDI and now we have what the FDA 
wants to do with the UDI, and that doesn't quite allow us to do 
the level of tracking that we were looking for.
    Dr. Roe. I guess is the problem, I mean, if you get my 
cornea or whatever it may be as I--and there probably is 
nothing on me worth using, but if there is they can use it and, 
if there is anything that is worth using, you are welcome to 
it. But when you transfer it, there is a way to do that and to 
transfer where that tissue came from, where it goes to and who 
it goes to. Isn't that available now?
    Dr. Icardi. There is, but what happens is the way it is 
identified can change on each leg of the journey. So what that 
means is, the way the UDI is set up, that is a number that gets 
used by the manufacturer. It may go to a distributor, that 
distributor may need to assign a different number to it. It 
could then go to a secondary distributor. It may then go out to 
a hospital, which then sends it out to a CBOC or that kind of 
thing. And the UDI is really specific for one small leg, it is 
not specific for the entire process. So what can happen is--and 
a great example is what happened during the first Gulf War with 
blood, where the blood supply was mobilized, you had units come 
in from all over the country each with their own unique 
identifiers, but there was no commonality between them. And 
that actually leaves that sometimes you can actually have a 
number that is the same from one collection facility as with 
what is in another collection facility, so you can't really 
identify it by that. You are then going to have to do some sort 
of re-labeling or some sort of a reassignment of a number to 
track it through the system.
    Dr. Roe. But for patient protection, isn't that important? 
I mean, I would think if I had an implant of some kind--well, 
actually I do have lens implants--that we should be able to--
that is why I can see you, I had both lenses implanted--and I 
think if there were a recall on that, I would like to know what 
the problem is and my doctor or his clinic be able to identify 
that and to let me know. We should be able to do that for 
patients.
    Dr. Icardi. I agree 100 percent with that. We should be 
able to do that and we shouldn't have to go through a process 
where you have to trace things back link by link and take in 
some cases six months from when a problem is actually 
identified to track all those parts down by this system, which 
is inefficient.
    Dr. Roe. I am going to yield, because I am over time. But 
the fact that it is hard doesn't mean we shouldn't do it.
    Dr. Icardi. And I agree as well. And that is why what we 
have been doing for the VA is looking at this, this is not just 
a VA problem, this is a national problem with the entire 
system. And for us to be able to fix it for the VA, we need to 
fix it for the nation. And so we have been working with Health 
and Human Services, FDA, DoD, and the other agencies, and there 
will be a conference on this in April that we will look to try 
and push this forward.
    Dr. Roe. Okay.
    Dr. Icardi. But there is a solution.
    Dr. Roe. I would like to continue our conversation. My time 
is expired.
    Mr. Coffman. Thank you, Dr. Roe.
    Ms. Rice, you are now recognized for five minutes.
    Ms. Rice. Thank you, Mr. Chairman.
    So, Ms. Flanz, I would just like to go back to the comments 
that some people were making about the whistleblowers. I mean, 
it is clear that the VA is not protecting whistleblowers to the 
extent that they need to at this point. And while I may agree 
that maybe a two-day investigative period, given the time 
constraint and the other responsibilities that that supervisor 
might have might be something that we need to tweak, I really 
hope that you would be willing to sign off on however we revamp 
this bill, because if you can't--I mean, clearly the VA has not 
been able to protect whistleblowers and you should want to be 
able to do that.
    And I know that it is not just putting that responsibility 
on supervisors, it is an appropriate training program so that 
people understand exactly what the parameters are. So I hope 
that you would agree to be open to some changes that would 
require an internal system to ensure the protection of a 
whistleblower for a real problem that needs to be addressed.
    Ms. Flanz. I couldn't agree more. I know the secretary 
agrees as well. This is a matter of great interest, it is a top 
priority for the secretary and the deputy secretary. And we 
have been working in unprecedented collaboration with the 
Office of Special Counsel on a number of things.
    Fundamentally, it is a leadership issue. Leadership must 
set the tone that disclosures need to be immediately addressed. 
Supervisors in a good, healthy work environment will welcome 
the information, because that is what leads to process 
improvement. That is how we ensure that veterans are treated 
safely, that our processes are efficient and are compliant with 
the law. Only good things flow from that exchange of 
information. When we get into trouble is when supervisors 
either don't know the rules or react inappropriately, because 
they haven't seen appropriately modeled to them the right 
behavior.
    So we absolutely are open. We have been working very 
closely with members of this committee and staff on issues with 
respect to individual whistleblowers and to the process we are 
using across the board to make the changes that really are 
critical. So absolutely, we are open to and need your help.
    Ms. Rice. Well, I agree that the best chance that we have 
is with Secretary McDonald, who has shown an interest in 
ensuring the protection of whistleblowers. And coming from 
someone who has run a DA's office, you are right, the tone is 
set from the top. And if people feel that by complaining they 
are going to be penalized, no one is going to complain. And 
that is where the neglect or the abuses become more insidious.
    So I just--and this might be a repetitive question, maybe I 
didn't understand, I just want to go back to Mr. Milsten. So 
you are coming and asking for a lot more money. My question is 
really, I think it is simple. Maybe it was asked before and I 
wasn't here, I don't know, or I didn't hear it in your 
explanation before. I would like specifics as to why $800 
million, the initial estimate, was not enough to finish this 
project--or 600--is that what it was, 600? Sorry. I gave you a 
$200 million cushion there I didn't mean to give. What happened 
that made this project incapable of being completed?
    So I want specifics about people, about who didn't do what 
they were supposed to do, about inaccurate estimates, specifics 
that we know going forward how is this not going to happen 
again with the other billion dollars that you are asking for. 
Because there is no way this government, at least I am not in 
the business of throwing good money after bad and it seems like 
that initial $600 million, as well intentioned as it may have 
been, is falling under that category.
    So please make the case. And I have to say that I also 
don't think that the VA should be in the business of building 
hospitals, but that is really an issue that we as a committee 
will have to discuss. If you can just lay out with real 
specificity what happened and how it is not going to happen 
again.
    Mr. Milsten. Okay. I will be happy to attempt that.
    First of all, the VA owns this, we own this fiasco that we 
created. It is nobody else's fault, but I am going to tell you 
that there are some other people that played a part in it. And 
I can tell you that we are looking at our role of oversight of 
those processes to figure out how and why they broke down.
    Number one, we hire a designer who is responsible for 
designing a facility to meet the requirements that we set 
forth. Early on, we develop some programmatic estimates in-
house, and then we rely on the designer to design the project 
to the budget that we have told him that we have. So in this 
case we had a designer we charged with delivering a design that 
could be built for just under $600 million. That designer 
provided us with estimates of how that could happen. And I can 
tell you that our breakdown was that we did not do the proper 
amount of due diligence on that estimate, we did not dig in far 
enough detail to actually go in and figure out that it could or 
couldn't be done. We relied on that and we moved forward. When 
we got advice from our construction contractor that the budget 
may not be billable, we chose unfortunately to listen to the 
designer.
    And these are changes that we are making in our process 
now. We are bringing in independent construction management 
firms to help us review estimates, to review schedules. Not 
just relying on the word of one firm representing what the 
requirements will cost, but relying on multiple firms to make 
sure that we get the best and correct answer.
    And we are also looking at how we change our culture to say 
that construction contractors are not always the enemy, if you 
will. Too often we engage in siding, if you will, with the 
designer and not listening to our sound advice from the actual 
builders of the facility.
    Ms. Rice. So if I can just say, that is exactly why the VA 
should understand their strengths and their weaknesses. And 
because you shouldn't be in the business of building hospitals, 
that should be left to an expert. That may be why that 
oversight was not as robust as it should have been. No offense 
to you.
    But if I could just ask you, because what I think that we 
need is a very detailed report of exactly what went wrong, when 
it went wrong, and who you hold responsible for those mishaps 
and miscalculations and all of those kind of things. I mean, 
you are coming and asking for money and that I think has to be 
laid out, not so much in this forum, because we have limited 
time, but if you could by next week prepare a document that 
details exactly what the shortcomings were, so that we can 
understand what happened, that would be----
    Mr. Milsten. The department has seated an administrative 
investigation board, that is their sole responsibility to go 
through these details and find the accountability. It looks at 
the mismanagement potentials and misbehavior potentials for 
people involved in the project. And I will turn it back over 
to----
    Ms. Rice. So there is a report that exists?
    Mr. Milsten. No, ma'am. A panel has been set. I am going to 
turn it over to Meghan to talk about the outcome, the expected 
outcome and time frame for that.
    Ms. Flanz. Very quickly. There are two ongoing processes 
and I will do my best to outline both very quickly. I know that 
the deputy secretary had phone calls with a number of members 
of this committee within the last couple of days, so I 
apologize if I am covering for you ground that has already been 
covered.
    But we have an administrative board of investigation, which 
that is an activity that my office owns. That group looks at 
individual accountability, who did what or failed to do what 
that needed to happen. At the leadership level, who knew and 
acquiesced in either actions or omissions by people below them. 
So that board looks at who is responsible for what error or 
omission that may have led us here.
    The second and equally important piece of VA's process of 
understanding what happened is the study that the Army Corps of 
Engineers is leading for us that is bigger than Denver, that 
is, really gets I think at some of the fundamental issues. Does 
VA have the expertise and the capability to continue to build 
hospitals? What are some of the systemic issues that have led 
to cost overruns or delays in projects, to include Denver, but 
not exclusive to Denver. Those two processes are ongoing. We 
absolutely share the frustration and the sense of urgency that 
I hear in the members today. We need these answers now, we 
needed them before the project went the way that it did.
    Having said that, the process of collecting evidence about 
decisions made over the course of a many-year program takes 
time. So I hear the request for a written report next week. The 
process that my team is working on will take more like a month 
than a week, but we are working to get those answers just as 
soon as we can pull the evidence together.
    Ms. Rice. The problem is if the money runs out in May of 
2015.
    Thank you, Mr. Chairman.
    Mr. Coffman. Thank you, Ms. Rice. Dr. Huelskamp, you are 
now recognized for five minutes.
    Dr. Huelskamp. Thank you, Mr. Chairman. I guess you used up 
my five minutes. I guess I am done, so I--just kidding. Thank 
you, Mr. Chairman, and I will note I appreciate the questions 
on Aurora and that situation. Actually, it might not seem 
pertinent to Kansans, but that would be the closest VA facility 
for a large share of the northwestern corner of my district. It 
is only 188 miles from Kansas. Do not forget it is 200, 300, or 
400 miles the other way for some of mine, so I watch this very 
closely, because I will have Kansans traveling, hopefully one 
day, to this facility.
    I have a couple questions. First, Ms. Flanz, on my bill, I 
understand that you support the concept, but are you willing to 
work with my staff, Subcommittee staff, to fix a few of the 
technical issues that you have expressed?
    Ms. Flanz. Absolutely, it is my understanding that our 
folks have already reached out to your staffers to set up a 
conversation to do exactly that.
    Dr. Huelskamp. Absolutely. You want to make certain that 
these set-asides obviously go to those veterans that should be 
qualifying for these particular contracts. So thank you for 
that commitment. We will continue to move forward and hopefully 
we will fix a few of those technical issues.
    I do have a few other questions on the other bills or some 
of the statements here. First, for Mr. Lowe, in reference to 
the IT--and I appreciate my colleague from Indiana and her work 
on this, and I was in some of these hearings--do you believe 
that the IT system at the VA is secure today?
    Mr. Lowe. Congressman, it is as secure as we can possibly 
make it. There is nobody in any position that--or anybody that 
sits in my position that can definitively state that their 
system is completely secure, because there are just too many 
unknowns. But based upon the information that I have today, I 
have to say that we are as secure as we can be.
    Dr. Huelskamp. Is there any independent assessment outside 
the VA that can----
    Mr. Lowe. Well, you know, the IG conducted an independent 
assessment. GAO conducts an independent assessment. You 
remember hearing in----
    Dr. Huelskamp. Yeah, and their assessment was not very good 
the last I saw. My question is, outside of the VA, outside of 
the government, have you brought in any independent----
    Mr. Lowe. Oh, yes, we----
    Dr. Huelskamp [continuing]. Contractors saying, ``Yes, this 
system is secure at a standard for the industry that we believe 
is''----
    Mr. Lowe. We had an independent assessment come in and take 
a look at the domain controllers, which we briefed the staff 
on, and it was specific to the domain controllers. And they did 
not--and that was specific to the instance that the Committee 
was concerned about that happened in 2010, and they found that, 
you know, the remediation activities that took place in 2010 
were effective.
    Dr. Huelskamp. All right. Well, I appreciate that and look 
forward to that information as we move forward ahead.
    And one other question on the issue of whistleblowers, and 
I know I speak for all the committee members that we have been 
stunned and shocked, particularly by the response from the 
Department at differing levels. We have had a series of 
secretaries that have promised to make certain whistleblowers 
were never retaliated against, and somehow that did not get 
down to other 320,000 folks working in the Department. How many 
outstanding cases of alleged whistleblower retaliation are 
still ongoing?
    Ms. Flanz. I do not have a number at hand. The Office of 
Special Counsel sends those cases to us in kind of two 
different batches, two levels of priority. We did work out with 
them last summer an agreement that if they prioritize a 
particular case because an individual employee who claims to be 
subject to whistleblower retaliation has a pending personnel 
action, something adverse is happening, those come over on an 
expedited basis. Our attorneys work with the supervisors and 
managers of those people to ensure that those--whatever adverse 
action is going on is stayed.
    Then there is another larger group of cases where the 
Office of Special Counsel hears from an individual who believes 
that he or she is the subject of retaliation, but there is 
either nothing immediate pending or the Office of Special 
Counsel is not as convinced based on the evidentiary record 
that they have that retaliation has, in fact, taken place. So 
those take a little bit longer.
    Dr. Huelskamp. So in order, though--I just have a few 
seconds left--in order to determine whether we have made 
progress or not--whether you have made progress or not--do you 
have any comparison baseline of what it was, maybe before you 
came on board, where it was three years ago? Can you provide 
those numbers to the Committee, so we can get a sense are we 
making progress?
    Ms. Flanz. Certainly. I will be happy to provide specific 
numbers, and I can tell you that we had an expectation when we 
entered into that agreement for this expedited process that the 
number of complaints that would be sent through that process 
would be quite high. It has actually been lower than I think 
either the Office of Special Counsel or our staff----
    Dr. Huelskamp. It is low, but you do not know what the 
number is today?
    Ms. Flanz. It is----
    Dr. Huelskamp. It is my understanding it is over 100 
outstanding cases of alleged retaliation. Is that in the 
ballpark?
    Ms. Flanz. That was the number that we were given at the 
time we entered into the agreement last summer. I think it is a 
much smaller number, more on the order of closer to ten that 
has come through the expedited process. But I would--I will be 
happy to get you precise numbers, so we can begin to have that 
kind of trend analysis.
    Dr. Huelskamp. Okay. Thank you, Mr. Chairman, I yield back.
    Mr. Coffman. Thank you, Dr. Huelskamp. Ms. Walorski.
    Ms. Walorski. Thank you, Mr. Chairman. Mr. Lowe, in your 
written statement you quote the following from the GAO that you 
were just speaking about, ``In a dynamic environment, where 
innovations and technology and business practices supplant the 
status quo, control activities that may work today may not work 
in the future.'' Are you aware the GAO actually supports this 
bill, and they actually worked with us in adding Section 10 to 
the bill on flexibility?
    Mr. Lowe. No, ma'am, I am not.
    Ms. Walorski. And in another statement you talk about--you 
point out that, ``A review must be performed on any patches to 
ensure the operability of the particular application or system 
to ensure the patch does not have a harmful impact to services 
that VA provides. My legislation instructs VA to perform the 
risk assessments and to also test patches within two days of 
availability.'' How long of an evaluation period would you 
need?
    Mr. Lowe. That is a technical question. I will have to ask 
the operational guys. I would be happy to get back to you on 
that.
    Ms. Walorski. Okay.
    Mr. Lowe. And, you know, we really--we have a unique 
opportunity now to actually drive what the nation is doing. I 
mean, legislating operations is problematic, because it does 
take away some of the flexibility. But I think we have all got 
the right idea, and we have got--we are all after the same 
endpoint, but there are a number of bills going through 
Congress right now that I think that we could probably squeeze 
all this together and come up with one legislation, so we are 
not having to deal with 20 or, you know, so different pieces of 
legislation that are coming out, not just specific to the VA, 
but specific to the government-wide. And I think that we have a 
really unique opportunity in time right now to be able to 
affect what the rest of the government does and what the rest 
of the nation does.
    And I would be happy to work with your folks to be able to 
come up with an awesome bill that not only this Committee could 
support, but the entire Congress and the Senate and the rest of 
the federal government can support.
    Ms. Walorski. And I appreciate that, and I would hope so as 
well. I just--if you are going to get back to me on the 
evaluation period of the assessments on the patches, could you 
also add to that? You talked about VA cannot phase out outdated 
or unsupported systems, because they would impact physicians at 
the point of care. My bill provides VA 90 days to come up with 
a migration transition plan to move to secure operating 
systems. If you could just add to the list how much more time 
would the VA need.
    Mr. Lowe. Sure. A lot of those operating systems are 
attached to medical devices, so we would actually have to, you 
know, a large number of the medical devices that are currently 
produced by manufacturers. And I think Dr. Roe probably knows a 
little bit more about this than I do, is the, you know, most of 
the medical devices that are in use, and most facilities today 
are running off of Windows XP. And so they had that FDA 
certification around that particular image.
    So I, you know, working with medical device manufacturers 
and replacing all that and upgrading those, whether or not the 
systems, actually themselves, that the operating can run it, 
that will be a long--I will--we will actually have to have a 
long conversation about how we do that, because we are going to 
have to work with not only the FDA, but the medical device 
equipment manufacturers.
    Ms. Walorski. That is fine. And if you could just add that 
to the list of--just sending it back at some point.
    Mr. Lowe. Absolutely.
    Ms. Walorski. And then I just want to, in response to your 
suggestion, I can tell you, I would hope so, that we can find a 
way to move this bill and to move actual verifiable 
accountability into the issue of the IT with the VA.
    And, you know, I am only starting my third year here, and 
from day one when I got here and we started talking about IT, 
and it all started back in the day when we talked about why 
cannot we get a electronic medical record and connect the DoD 
to the VA, and I sat in a subcommittee hearing even then with 
these same issues of domain controllers, of outside entities on 
domain controllers. And, you know, my concern was the breaches 
that have taken place with our veterans nationwide. And, you 
know, money has never been an issue. And when we talked about 
issues before with some of the--I do not know if they work for 
you, around you, I do not know how your whole group flows, the 
folks who have been in here testifying on it--but the reason I 
am pursuing it is because veterans' information is so critical, 
and the bad actors that have been embedded and have been 
impacted inside of this domain controller--and we might have to 
just agree to disagree--but not only are they--not only is just 
their personal information available, but when these bad actors 
get in and disallow us from connecting to the DoD because of VA 
not having a secure website, you know, what happens if a bad 
actor gets in there and scrambles medical records?
    What happens if, you know, they just decide to go in and 
look at 30 million veterans and say, ``How can we completely 
mess up this system?'' And I think every veteran that served 
not only deserves the best of everything they were promised, 
but when they come back from fighting and they come back into 
our country, especially in my state, in the State of Indiana 
where we are over the top patriotic and we are over the top in 
sending folks to fight, they--I just am fighting for them to 
say at some point, ``Let's get beyond this.''
    And so I just wanted to make sure that we have some kind of 
level of understanding of House bill--of our bill 1017. I 
appreciate your comments in writing in the coming days. Thank 
you. I yield back my time.
    Mr. Coffman. Thank you. Mr. O'Rourke, you are recognized 
for five minutes.
    (No response.)
    Mr. Coffman. Mr. O'Rourke passes. I would like to thank the 
panel for your testimony. You are now dismissed. I now welcome 
our second and final panel to the witness table. On this panel, 
we will hear from Ms. Diane Zumatto, National Legislative 
Director of AMVETS; Mr. Frank Wilton, Chief Executive Officer 
of the American Association of Tissue Banks; Mr. Daimon E. 
Geopfert, National Leader, Security and Privacy Consulting for 
McGladrey, LLP. All of your complete written statements will be 
made a part of the hearing record. Ms. Zumatto, you are now 
recognized for five minutes.

                   STATEMENT OF DIANE ZUMATTO

    Ms. Zumatto. Thank you, Mr. Chairman and distinguished 
Committee Members. I am pleased to have this opportunity to sit 
before you today to share our comments on pending veteran 
legislation. Before I get into our specific positions on these 
bills being considered, I would like to share a few general 
introductory remarks.
    AMVETS is, in general, a fiscally conservative organization 
which supports the interests of our veterans and military men 
and women. Our members want to see a balanced federal budget, 
and I have major concerns surrounding the ever-increasing 
federal deficit. Additionally, our membership would like to see 
an increase in federal accountability, especially within the 
Department of Veterans Affairs, as well as a decrease in 
government bureaucracy.
    AMVETS does not support the concept of indiscriminately 
throwing money at problems. While some of our colleagues are 
shocked by this notion, AMVETS acknowledges that there are 
certainly programs that would benefit from increased funding. 
However, we believe that before those increases are made, they 
should first be fully justified and only come after a thorough 
review of the organizational structure of each program or 
agency with an eye to identifying system efficiencies, 
maximizing all current resources, both human and financial, 
minimizing waste, and eliminating redundancies.
    And as far as legislation today, AMVETS supports H.R. 571, 
which would provide whistleblower protection for folks within 
the VA. If we expect employees to be willing to take actions to 
prevent fraud, illegal acts, et cetera, then those employees 
are going to have to feel confident that if they do step 
forward, they will be safe from any form of retaliation, either 
personal or professional, that the information they provide 
will be acted on in a confidential and appropriate manner, that 
the information will also be handled in a timely manner.
    AMVETS applauds Chairman Miller's continued efforts to 
ensure that VA employees, many of whom are veterans, have an 
equitable and safe environment within which to better serve all 
American veterans.
    AMVETS supports H.R. 593. There has been a lot of 
discussion about that this morning, and there is really not 
much more I think that needs to be added. Something needs to be 
done. It is obvious that the status quo is not adequate. So we 
do support H.R. 593.
    We also support H.R. 1015. It is a pretty simple and 
straightforward solution. And there, you know again, I do not 
really have too much to say to this. I do realize that there is 
some monitoring that is going on. And I am aware also that the 
IG, you know, finds cases of abuse almost daily, so we know 
that there is a problem. And I think this is a pretty simple 
way to rein that in.
    We support 1016, which, you know, would require the VA to 
adopt and implement a standard identification protocol. And I 
have listened to the testimony all morning, and I understand 
that there are a lot of difficulties, but this does not seem 
like an insurmountable problem. It is a matter of logistics, 
and I would really encourage the VA to--if every provision in 
this bill does not work for whatever reason, I would hope that 
they would be willing to work towards a solution.
    We also are supportive of H.R. 1017 and 1128, both of which 
are related to information security. As a veteran, I shudder to 
think about the vulnerability of the VA system. I know they are 
aware of the problem, and I think there has been plenty of 
beating up on the VA lately. I just would really stress that 
this is critically important to AMVETS that this problem be 
taken care of. I would also like to applaud Representatives 
Walorski and Kirkpatrick for their efforts in this area.
    AMVETS also--I hesitate on 1129, even though it is also a 
whistleblower bill. And we hesitate only because of my 
introductory remarks. We hesitate to condone an increase in 
bureaucracy. My read of this is that there is going to be the 
creation of a new agency that would handle this problem, and we 
think that there is already probably enough between the IG and 
the Office of Special Counsel that there is probably no need to 
create another agency.
    That concludes my testimony at this time, and I yield back.

    [The prepared statement of Diane Zumatto appears in the 
Appendix]

    Mr. Coffman. Thank you, Ms. Zumatto. Mr. Wilton, you are 
now recognized for five minutes.

                   STATEMENT OF FRANK WILTON

    Mr. Wilton. Thank you, Subcommittee Chairman Coffman, Mr. 
O'Rourke, distinguished Members. Thank you for the opportunity 
to come before you today in support of H.R. 1016, the 
Biological Implant Tracking and Veterans Safety Act of 2015.
    For those who are unfamiliar with my organization, the 
American Association of Tissue Banks is a professional, not-
for-profit scientific and educational organization. It is the 
only national tissue banking organization in the United States, 
and its membership totals more than 125 accredited tissue banks 
and approximately 850 individual members. These banks recover 
tissue from more than 30,000 donors annually and distribute in 
excess of two and a half million allografts for more than one 
million tissue transplants performed in this country annually. 
The association was founded in 1976 by a group of doctors and 
scientists, who had started in 1949 our nation's first tissue 
bank, the United States Navy Tissue Bank.
    H.R. 1016 directs the Secretary of Veterans Affairs to 
adopt a standard identification system for use in the 
procurement of biological implants by the Department of 
Veterans Affairs. By building upon the success of the 
implementation of the unique device identifier, or UDI, this 
legislation will ensure that biological implants used within 
the Department can be appropriately tracked from human tissue 
donor all the way to recipient. This critical capability for 
track-and-trace efforts will enhance patient safety, expedite 
product recalls when necessary, assist with inventory 
management, and improve overall efficiencies.
    This legislation takes a bold step to expand the UDI to all 
tissue products. In addition to human tissue devices which are 
already covered by the UDI, the legislation adds another 
product category--certain biological implants, or as termed by 
the Food and Drug Administration, 361 human cells, tissues, and 
cellular and tissue-based products, or HCTIPs. While many of 
the biological implants do have company-specific barcoding 
information by requiring a standardized format for those 
barcodes as outlined in this legislation, it will be easier for 
the Department of Veterans Affairs' medical facilities to 
utilize the universal barcoding conventions and to realize the 
full benefit of the unique identification system.
    Finally, by applying a system that has been developed for 
devices to biological implants, such a solution would also be 
applicable to other healthcare settings and other healthcare 
systems such as the Department of Defense healthcare system or 
the private sector.
    While I understand your skepticism in requesting the VHA 
attempt a VITAS-like enterprise in this legislation after 
failing to do so before, I would note that a lot has changed 
since 2008 when the VHA first envisioned VITAS. First, there is 
now a UDI benchmark, which allows those developing the 
necessary software for data capture to move from a design 
incorporating dozens of different barcoding technologies to 
only three different ones.
    In addition, the VHA is not alone in trying to develop a 
system for integrating the UDI-like information directly into 
the medical record. For instance, the Office of the National 
Coordinator for Health Information Technology is currently 
focused on ways in which UDI can be better operationalized to 
ensure its adoption into key standards. As part of those 
efforts, ONC is initially focused on implantables, the very 
focus of the legislation that we are discussing today. 
Therefore, the VHA will not be attempting to establish the 
system alone, but can partner with other governmental entities 
to ensure its success.
    In addition, AATB is pleased that the language, as 
introduced, ensures that our veterans receive the high quality 
implants by requiring that biological implants only be sourced 
from tissue processors accredited by the AATB or similar 
national accreditation organizations. With this change, the VHA 
will be joining the ranks of leading medical centers of 
excellence which currently require all tissue to be sourced 
from AATB-accredited banks.
    AATB is also pleased that the introduced language clarifies 
that human tissue procured by the VHA can be labeled with any 
of the three systems already identified by the Food and Drug 
Administration to be appropriate for biological implants. Under 
the UDI final rule, FDA has done just that by providing for 
multiple entities called issuing agencies.
    At this time, FDA has provided for three different issuing 
agencies, GS1, the Health Industry Business Communications 
Counsel, or HIBCC, and ICCBBA. By maintaining this appropriate 
flexibility, the VHA will ensure a more competitive 
marketplace. AATB strongly supports this legislation and urges 
you to favorably report it out of the Subcommittee. I welcome 
your questions and yield back the remainder of my time.

    [The prepared statement of Frank Wilton appears in the 
Appendix]

    Mr. Coffman. Thank you, Mr. Wilton. Mr. Geopfert, you are 
now recognized for five minutes.

                STATEMENT OF DAIMON E. GEOPFERT

    Mr. Geopfert. Thank you. First, Chairman and Members of the 
Committee, thank you for the opportunity to discuss the 
Department of Veterans Affairs Information Security Programs.
    My name is Daimon Geopfert, and I was asked to speak today 
as a veteran and as a security expert with experience in both 
the government and corporate worlds. I served the United States 
Air Force Office of Special Investigations as a computer crimes 
investigator, the Air Intelligence Agency, three years as a DoD 
contractor, and now eight years as a security consultant within 
the corporate world.
    Also, like many of my peers, I have also received a letter 
from the VA stating that they failed to protect my personal 
information. I am here today quite simply for a call to 
accountability. Men and women in the armed services are held to 
account for every action they perform or fail to perform. And 
they expect that same mentality to be applied to the entities 
that control their sensitive personal and medical data. 
However, all indications are that the VA has failed in this 
duty.
    What is most frustrating to the veterans is this is not a 
singular failure but rather a long-running, repeated systemic 
series of failures. Passing legislation such as H.R. 1017 would 
provide a detailed roadmap for the VA to follow in addressing 
these issues. The VA has a widely reported history of non-
compliance with a variety of regulations. We recently learned 
that for the 16th year in a row, they failed a major security 
audit.
    The VA's own internal risk assessments, using their exact 
terms, state that a data breach of its primary VISTA system is 
practically unavoidable. It would result in a exposure of 
financial, medical, and personal data with no way of tracking 
the source of the breach. The VA has stated that physical loss 
of data and user error is their primary risk and accounts for 
98 percent of the known incidents.
    However, extensive reporting and the consistent theme of 
the audits indicates that the VA mostly likely does not have 
the capability to know, or prove, that data was not taken by 
hackers.
    A specific example involved foreign infiltrators known to 
have extracted materials out of the VA environment, but because 
of the lack of logging and monitoring by the VA and use of 
encryption by the foreign party, it will never be known what 
the contents of that data were. Scenarios such as this allow 
the VA to continue to state that the organization is unaware of 
any major data loss as a result of hackers. But this is likely 
a factor of the failure and lack of capabilities of their 
monitoring, rather than success of any preventative controls.
    These widely known and extensively reported issues simply 
would not be tolerated in the corporate world, largely because 
of the existence and enforcement of explicit legislation and 
industry standards. If examinations of a private sector 
organization produced similar results as those identified 
within the VA, that entity would face substantial fines and 
penalties. There is little doubt that the officers and 
directors of such an organization would face serious personal 
consequences. The VA, for all practical purposes, is exempt 
from any of the legal penalties that force its corporate peers 
into compliance, and the results of that situation is self-
evident.
    H.R. 1017 provides the VA with clear detailed technical 
requirements and governs mechanisms to address this issue. The 
FFIEC would not tolerate this of a bank. The SEC would not 
tolerate this of a broker/dealer. State attorneys general would 
not tolerate this under anybody within their purview without 
very harsh criminal and civil repercussions. The veteran 
community is reasonably curious why the VA is held to such a 
drastically different standard.
    It cannot be forgotten that the true risk in this scenario 
is the health and well being of the generations of veterans the 
VA serves. The most obvious risk is identity theft, which 
results in additional stress within a population already 
dealing with a variety of significant physical, emotional, and 
financial pressures. While this is the most obvious risk, it is 
not the exclusive one.
    What if beyond identity theft, some actor managed to 
perform a mass alteration or destruction of medical records out 
of sheer malice? Do you think this would beyond the pale for a 
variety of hacking groups, or hacktivists, that align 
themselves with rogue nations or terrorist groups? It could 
conceivably disable the entire VA infrastructure, interrupting 
services to millions of veterans. It would be a direct, highly 
visible strike against the veterans that fought them. The men 
and women who have served our country, as well as their 
dependents, deserve and expect to have their welfare protected 
by organizations like the VA that play such a vital role in 
their lives.
    This legislation is sorely needed and would be one of the 
first of its kind to provide such detailed prescriptive 
guidance. The protection of the personal information of 
veterans should be a bipartisan issue. So our community hopes 
that this will be quickly passed and enforced. Targeted 
appropriate legislation is needed to force compliance and 
provide veterans and their families with the security they 
deserve.
    This legislation should explicitly require proper 
preventative, detective, and corrective controls along with 
required oversight and reporting. The VA, and the bodies that 
oversee it, have an obligation to Veterans to finally take 
decisive actions demonstrating the resolve to do the right 
thing. And, Mr. Chairman, that concludes my statements.

    [The prepared statement of Daimon Geopfert appears in the 
Appendix]

    Mr. Coffman. Thank you, Mr. Geopfert. Let me do a question 
for you. There has been concern that the IT security directive 
is too detailed. It might not be applicable in the coming years 
due to the inherent changing nature of technology. What is your 
view regarding this potential issue?
    Mr. Geopfert. I think it is a very limited view. The drift 
in the corporate world has been from generalist regulation and 
oversight to very prescriptive, simply because the generalist 
style of guidance has proven to be very ineffective. The other 
style, the competing bill that is very generalist in nature, 
essentially puts another wrap around a lot of items that the VA 
is already supposed to be doing but has failed to do. What is 
viewed as prescriptive in this bill is interesting, because 
most of this is what they are required to be doing already. It 
is just basically done in a more regimented manner. This is 
already an existing legislation in the corporate world. So the 
idea that it is too prescriptive to be effective is a bit 
misleading. Obviously, there can be tweaks made if there are 
specific points.
    Mr. Coffman. Okay. Mr. Wilton, VA has indicated that it 
wants to limit the issuing agencies solely to ISBT 128. Is that 
a good idea?
    Mr. Wilton. We do not think it is, Mr. Chairman, for a 
couple of simple reasons. First and foremost, the FDA has 
looked at this fairly closely and recommended that all three 
systems be used.
    Secondarily, we would be concerned if the VA limited it to 
one system. There may well be tissue banks who decide to align 
themself with another system, and therefore would not be in a 
position to bid on business with the VA, which we think could 
limit the ability for the VA to source the best tissue for our 
veterans.
    So the FDA has ruled on this and, you know, in talking with 
our accredited banks, there does not seem to be a unanimity in 
terms of which system they are going to go with, so we do not 
think it is a good idea for the VA to limit that.
    Mr. Coffman. Ms. Zumatto, can you give us an example of 
something that could be a reform that could be done to the 
Veterans Administration to make it more efficient with respect 
to both the taxpayers and veterans?
    Ms. Zumatto. Wow.
    Mr. Coffman. What would be your top concern?
    Ms. Zumatto. Honestly, from both being a person who is an 
advocate for veterans' issues and being in the VA system, I 
think the biggest problem is that veterans actually do not come 
first in the system. It does not feel that way when I am at the 
VA Medical Center.
    And if there was a way--and I understand the new Secretary 
says, you know, ``Veterans first.'' And that's the motto 
essentially, ``We care for veterans.'' But it does not actually 
feel that way to me personally. So if there was a way to change 
that so that it really is about veterans first, and about VA 
and VA employees and contractors and everybody else 
secondarily, I think that would go a long way to making some 
positive changes. And I do not think that--if those changes--
they have to be modeled at the top. But if it does not drift 
down to every single layer, and there are many layers, then 
nothing is really going to change, unfortunately.
    Mr. Coffman. Thank you for your answer. Mr. O'Rourke, five 
minutes.
    Mr. O'Rourke. Thank you, Mr. Chairman. I want to thank the 
witnesses for their testimony today. To have the perspective of 
a veteran service organization and then the subject matter 
experts on two issues that I do not have a lot grounding in, I 
think is very helpful, and I think helpful for the committee, 
as well.
    And I think you have also touched on what I think is the 
core issue that we need to resolve within the VA, which is 
accountability. And I think each of these pieces of 
legislation, to some degree, tries to correct that, and I want 
to thank the committee members and the staff who have worked on 
these bills and you all for your feedback on these.
    You know, Ms. Zumatto, when we talk about throwing money at 
problems, which, you know, we couldn't agree more with you 
that, that is not the solution. We are glad that, that is your 
position and that of your organization.
    You have to conclude that if Aurora were to have taken 
place within a private hospital corporation like HCA or Tenet, 
that there would be consequences, or that that would not even 
happen in the first place, because at some point, that would 
have been caught and fixed. And to go from 600 million to 800 
or 900 to 1.1 to maybe 1.7, to me is just unconscionable and 
completely out of line with what we would expect to see in the 
private sector.
    And Mr. Geopfert, you mentioned that the IT protocols and 
the data and information security that we have within the VA 
today, at least by your description, does not track with what 
we would expect from the private sector. And you mentioned that 
there is legislation and industry standards that, you know, 
most corporations hue to, to ensure that they protect the data 
of their customers and clients. It is not always completely 
successful, but you are making a case for a higher standard 
that the VA does not adhere to.
    Mr. Wilton, from your testimony, it was not completely 
clear to me whether or not the VA in tracking biological 
implants and this issue of--the other issues that you raised--
is so far out of track from what the national standard is, but 
it may be that I don't completely understand the issue, so I 
just want to give you a minute or two to elaborate on that and 
talk about the difference between the VA standard and the 
national standard.
    Mr. Wilton. Yes. So this is an evolving issue, Congressman. 
But it is one that we see the VA actually taking a leadership 
role on. One of the very important things about all tissue is 
it is recovered and tracked from the donor through the 
distribution. Once it gets to the final location, the hospital, 
the doctor, then sometimes that chain is broken, and we want to 
work with the VA so that they can maybe take a leadership role 
in this and then, as I mentioned, we can take it out to the 
Department of Defense, to the private sector.
    We think this is something that can be done. We look 
forward to working with the VA on any challenges they might 
have. But we think this is just, quite frankly, the best way to 
do it, and I think our veterans deserve the best. And, you 
know, God forbid there is an incident of a recall or something 
like that, we should be able to get back to them in a timely 
fashion, and we think that this type of system will do that.
    Mr. O'Rourke. So this is potentially a positive point 
coming out of today's testimony and the issues that are here in 
terms of an opportunity for the VA not just to catch up to the 
rest of the country and other sectors, but actually potentially 
to lead, innovate, and set the standard for others?
    Mr. Wilton. Absolutely. And we commend Dr. Roe for 
introducing the legislation. We look forward to working with 
all the parties to make this happen.
    Mr. O'Rourke. Yeah. For Mr. Geopfert, I want to make sure I 
understand that legislation that the private sector must adhere 
to and those industry standards--and I realize we cannot get 
into detail--but is it simply a matter of the VA matching 
those? Or are there some intrinsic differences in our systems, 
in our customers and clients, that should allow for some 
difference or distinction between the two systems? Or is it 
simply a matter of the VA just admitting that it needs to catch 
up to the rest of the country and follow that law?
    Mr. Geopfert. It does not repeat, but it rhymes. A lot of 
the industry standards are going to have their own names, and 
norms and references to how they do security, but they are 
very, very similar. You are probably 80 to 90 percent similar 
across all industries. And what is in the bill essentially 
captures that. Again, a lot of this, while they viewed it as 
prescriptive, is considered best practice and normal network 
hygiene in many other industries.
    There is going to be tweaks simply based on the size, 
composition, legacy systems, how they interact with others. 
There needs to be some give and take in there around risk and 
how they do specific things, but the vast majority of what is 
going on in private industry would directly translate to what 
they are doing. And they simply are just not being held to 
account to that right now.
    Mr. O'Rourke. Thank you. Thank you each. I will yield back.
    Mr. Coffman. Thank you, Mr. O'Rourke. Ms. Walorski.
    Ms. Walorski. Thank you, Mr. Chairman, and thank you to all 
of you for being here today. We appreciate it. Mr. Geopfert, do 
you believe this bill allows for flexibility and that Section 
10 does allow a risk-based approach?
    Mr. Geopfert. I believe there can be some clarification in 
the language. Based on their earlier testimony, they were 
specifically calling out two points----
    Ms. Walorski. Yes.
    Mr. Geopfert [continuing]. Around patching and legacy 
systems. In the bill as it is right now, there is a caveat 
around doing risk assessments. I think their comment that they 
might take some additional time--your point that is in there 
now is two days--48 hours is a very common norm for critical, 
high-risk patches.
    Ms. Walorski. Okay.
    Mr. Geopfert. Stuff that is rated lower might be 15, 30, 90 
days, depending on what it is. Legacy systems, they have a 
valid point. We work in a variety of industries where it is the 
norm to have legacy unsupported systems that they have to 
maintain for some reason, similar to the VA. But they have to 
document why they are still on the network. They have to put in 
compensating controls to limit the risk. They have to isolate 
the system, and they have to begin planning on when and, if 
possible, they are going to remove them out of the environment. 
They do not just say we have to deal with them, so they are 
there.
    Ms. Walorski. Sure. Do you think it is safe for VA to be 
running on all these outdated operating systems? And then 
secondarily, how big of a risk would it be to have isolated 
computers on the network running on unsupported and outdated 
operating systems?
    Mr. Geopfert. The safest, obviously, would to get rid of 
it, but it might not be feasible. Their comment is very common 
in the industry around a lot of the legacy systems are medical 
devices. They have no direct control over those. Those come 
from vendors.
    But the point still states, if it is a legacy system, 
meaning it is not maintainable anymore, any exploit that comes 
out from here going forward, that system will be vulnerable 
to--you are basically embedding a permanent vulnerability on 
the environment. If it needs to be there, it needs to be 
isolated. It is going to be a minor risk. But you are treating 
it essentially as infected, a radioactive. You are isolating it 
as far as it can be, and still be operational. There are ways 
to go about it. I guess I will put it that way.
    Ms. Walorski. Okay. And then given the current information 
security requirements already in place, would you say that the 
directive duplicates existing federal guidance?
    Mr. Geopfert. I do not. A lot of the federal guidance out 
there is laid out as almost a recommendation style.
    Ms. Walorski. Okay.
    Mr. Geopfert. And it is very high level. And as noted 
earlier, in the private sector there is a very heavy trend 
towards much more prescriptive guidance, because they have 
years of incidents demonstrating that the statements generally 
go be secure, and here is some recommendation. It just does not 
work.
    And so while the VA is going to say is that is onerous for 
them, all the other industries are saying the same thing. It 
does not matter. They are being held to account. And it is a 
little bit of an oddity that the private sector is expected to 
comply with no question whatsoever, and no excuses. And for 
someone in a government entity to say it is onerous, so 
therefore I don't want to do it.
    Ms. Walorski. Okay. I appreciate it. And thanks. And I am 
just thankful for your support and, ma'am, for yours, as well. 
I yield back my time, Mr. Chairman. Thank you.
    Mr. Coffman. Thank you, Ms. Walorski. I would like to thank 
the panel for your testimony. You are now excused. And I did 
want to thank everyone for their participation today. The input 
and feedback provided today is an important contribution as the 
subcommittee crafts legislation to improve the quality of 
service VA provides to our nation's veterans. With that, I ask 
unanimous consent that all members have five legislative days 
to revise and extend their remarks and include extraneous 
materials. Without objection, so ordered. This hearing is now 
adjourned. Thank you.
    [Whereupon, at 9:51 a.m., the subcommittee was adjourned.]

                                APPENDIX

              Prepared Statement of Chairman Mike Coffman

    Good morning. This hearing will come to order.
    I want to welcome everyone to today's legislative hearing on: H.R. 
571; H.R. 593; H.R. 1015; H.R. 1016; H.R. 1017; H.R. 1128; and H.R. 
1129.
    The latter two, H.R. 1128 and 1129, are bills suggested for this 
hearing by the Minority, so I will ask Ranking Member Kuster to address 
them in her opening remarks. I also welcome Full Committee Chairman 
Jeff Miller and ask unanimous consent that the Honorable Ann 
Kirkpatrick, the previous Ranking Member of this Subcommittee, be 
allowed to join us on the dais. While we are at it, I would also like 
to ask unanimous consent that a statement from the American Legion be 
entered into the hearing record. Hearing no objection, so ordered.
    Today, we will address H.R. 571--The Veterans Affairs Retaliation 
Prevention Act of 2015, which was introduced by Full Committee Chairman 
Jeff Miller. This bill will improve the treatment of whistleblower 
complaints by the VA by defining a set process for whistleblowers help 
correct problems at the lowest level possible, while creating necessary 
penalties for supervisors who retaliate against whistleblowers.
    Second, H.R. 593--The Aurora VA Hospital Financing and Construction 
Reform Act of 2015 is a bipartisan bill I introduced along with the 
rest of the Colorado delegation. H.R. 593 would increase the 
authorization cap to help the VA to finally finish the Aurora Medical 
Center, with the much-needed help of the Army Corps of Engineers, in 
order to give Colorado veterans the state-of-the-art medical facility 
they deserve. Since this bill's introduction, the VA has announced that 
the Aurora project will cost at least $1.73 billion, a full $1.4 
billion over the original cost found in GAO's report. This is simply 
outrageous and could very well make this hospital the most expensive in 
our nation's history. Notably, according to GAO, the New Orleans VA 
hospital construction project will top $1 billion as well, so 
mismanagement, cost overruns, and delays are the norm for VA's 
construction program. For that reason, I question whether VA should 
conduct its own major construction at all.
    While it is my top priority to get this hospital built so that 
Colorado veterans get the service they deserve, we simply cannot 
authorize a nearly $1 billion authorization cap increase without VA 
presenting the options it has to correct its own poor decisions with 
only half of a hospital to show for it. VA has reprogrammed a portion 
of the funds needed to finish the Aurora construction, but it cannot 
continue to pull money from other projects thereby robbing other 
veterans around the country of a timely completion of their hospital. 
Perhaps we could use VA bonuses to provide funding for this grossly 
mismanaged project. Perhaps we could amend the Choice Act so that some 
of the $5 billion authorized for minor construction could be used to 
finish this project.
    But, what is absolutely clear is that before any money is given to 
the VA to bail them out of the mess they created in Aurora, VA 
construction officials responsible for this travesty must be held 
accountable. These individuals should not be simply taken out of the 
chain of command for VA construction; they should be FIRED. If anyone 
in the private sector allowed a project under their supervision to get 
$1 billion over budget, the decision to fire them would be simple. That 
should happen here and I look forward to our discussion today with VA 
on ways forward.
    Third, we will address H.R. 1015--The Protecting Business 
Opportunities for Veterans Act of 2015 sponsored by the Honorable Tim 
Huelskamp of Kansas.
    H.R. 1015 will make tremendous strides at holding accountable the 
bad actors that attempt to defraud Veteran Owned Small Businesses of 
crucial set asides they receive in business.
    Fourth, we will discuss H.R. 1016--The Biological Implant Tracking 
and Veteran Safety Act of 2015 introduced by the Honorable Phil Roe of 
Tennessee. This legislation requires the VA to implement a standard 
identification protocol for biological implants, consistent with the 
FDA's system, which would improve VA's ability to prevent implantation 
of contaminated tissue and also to notify veterans in cases of recalls.
    Fifth, we will hear about H.R. 1017, The Veteran Information 
Security Improvement Act, which was sponsored by the Honorable Jackie 
Walorski from Indiana. This IT Security directive is designed to assist 
VA in mitigating known weaknesses by identifying detailed actions that 
should be taken to address its longstanding information security 
challenges.
    Once again, I would like to thank all those in attendance for 
joining us in our discussion today, and I now recognize Ranking Member 
Kuster for five minutes to issue her opening statement.

    Prepared Statement of Chairman Jeff Miller of the Full Committee

    Thank you, Chairman Coffman.
    It is a pleasure to be here today with you to discuss my bill, H.R. 
571, the Veterans Affairs Retaliation Prevention Act of 2015. During 
the 2014 VA scandal that this Committee uncovered, a culture of 
retaliation and bureaucratic corruption gripped the department. The 
hallmark of that culture was and remains the rampant retaliation 
against VA employees who speak up to fix problems within the VA.
    These problems were so widespread that, in 2014, the Office of 
Special Counsel became inundated with more whistleblower complaints 
than all other agencies in the federal government combined. 
Unfortunately, despite promises from VA leadership that whistleblower 
retaliation will no longer be tolerated, continued occurrences of 
retaliation and the lack of any meaningful accountability show that is 
not the case. Proper oversight of any federal agency simply cannot be 
done effectively without employees within that agency informing the 
congress and other oversight bodies of specific problems.
    Over the years, numerous federal statutes have been passed to 
provide added protections to whistleblowers, but many VA supervisors 
have managed to consistently circumvent these laws, without 
repercussion, to the detriment of good employees. My bill seeks to put 
an end to that.
    Specifically, H.R. 571 would provide VA employees who seek to 
report potential government waste, criminal behavior, or compromised 
healthcare services within the VA a set process to fix problems at the 
lowest level possible while affording them improved protection from 
retaliation. This legislation will also prohibit superiors from 
retaliating against employees who report or assist in reporting 
problems to the VA, the Inspector General, Congress, or the GAO.
    Employees who serve as a witness in investigations and those who 
refuse to perform illegal acts in the course of their employment will 
also be protected. To ensure accountability, H.R. 571 will provide 
meaningful penalties to VA employees who are found to have retaliated 
against another employee for filing a whistleblower complaint.
    Specifically, the retaliating employee would receive: A suspension 
or removal from federal service; a fine to repay the expense borne by 
the federal government in defending their retaliatory behavior; a 
forfeiture of bonuses received while the retaliation occurred; and a 
prohibition of receiving future bonuses for a one year period.
    Finally, this legislation requires improved training to be provided 
to all VA employees on the protections afforded to employees making 
complaints and the repercussions that retaliating employees will face 
if they seek to suppress positive change. America's veterans deserve 
the highest quality services provided by the VA. Improvements to those 
services often come in the form of suggested fixes by its employees.
    This commonsense legislation would provide the process to safely 
suggest those fixes while giving Secretary McDonald, and all 
secretaries in the future, the tools to hold accountable employees who 
seek to prevent change.
    I look forward to working with Committee members, our VSO partners, 
the VA, and other stakeholders on this bill, because protecting the 
conscientious VA employees who report waste and wrongdoing within VA 
must be among our constant priorities.
    Thank you once again, Chairman Coffman, for holding this hearing 
and for your hard work and leadership of the subcommittee on oversight 
and investigations. I appreciate the opportunity to be with you all 
today.
    With that, I yield back.
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
  
    
                                 [all]
</pre></body></html>
